 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




ARKANSAS PROPERLY REPORTED THE
AFFORDABLE CARE ACT PORTION OF
    MEDICAID DRUG REBATES



   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Patricia Wheeler
                                                Regional Inspector General

                                                       November 2013
                                                       A-06-13-00034
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                                             O FFICE OF A UDIT S ERVICES , R EGION VI
                                                                1100 C OMMERCE S TREET, R OOM 632
                                                                                  D ALLAS , TX 75242

November 13, 2013



Report Number: A-06-13-00034

Mr. Thomas Carlisle
Chief Financial Officer
Arkansas Division of Medical Services
Department of Human Services
P.O. Box 1437, Slot 416
Little Rock, AR 72203-1437

Dear Mr. Carlisle:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Arkansas Properly Reported the Affordable Care Act Portion
of Medicaid Drug Rebates. We will forward a copy of this report to the HHS action official
noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
https://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-06-13-00034 in all correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Thomas Carlisle


HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
ROchiORA@cms.hhs.gov
                                              INTRODUCTION

WHY WE DID THIS REVIEW

Section 2501 of the Affordable Care Act (ACA) increased the amount of rebates that drug
manufacturers are required to pay to States under the Medicaid drug rebate program, effective
January 1, 2010. Prior to the ACA, States kept the State share of rebates collected and returned
the Federal portion, which is based on the Federal medical assistance percentage (FMAP) in
effect for that State. However, the ACA requires States to return to the Federal Government 100
percent of the rebates collected that are attributable to the increases in the ACA (ACA portion).

OBJECTIVE

Our objective was to determine whether the Arkansas Department of Human Services (State
agency) established adequate controls to properly report the ACA portion of Medicaid drug
rebates.

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. The Federal Government pays its share,
the FMAP, according to a formula established in section 1905(b) of the Act.

Medicaid Drug Rebate Program

The Medicaid drug rebate program became effective in 1991 (the Act, § 1927). For a covered
outpatient drug to be eligible for Federal reimbursement under the program, the drug’s
manufacturer must enter into a rebate agreement with CMS and pay quarterly rebates to the
States. CMS, the States, and drug manufacturers each have specific functions under the
program.

Manufacturers are required to submit a list to CMS of all covered outpatient drugs and to report
each drug’s average manufacturer price (AMP) and, where applicable, best price. 1 On the basis
of this information, CMS calculates a unit rebate amount for each drug and provides the
information to the States each quarter.

1
 Section 1927(b) of the Act and section II of the Medicaid rebate agreement. The AMP is the average price paid by
wholesalers to manufacturers for drugs distributed to retail pharmacies. The best price is the difference between the
price that the State paid and any lower price paid by purchasers other than health maintenance organizations or
Government entities.

Arkansas Properly Reported the Affordable Care Act portion of Medicaid Drug Rebates (A-06-13-00034)                 1
States report drug rebates on Form CMS-64, Quarterly Medicaid Statement of Expenditures for
the Medical Assistance Program (CMS-64 report), which summarizes actual Medicaid
expenditures for each quarter and which CMS uses to reimburse States for the Federal share of
Medicaid expenditures.

Medicaid Affordable Care Act Portion of Federal Drug Rebates

Effective January 1, 2010, § 2501 of the ACA amended § 1927 of the Act, increasing the amount
of rebates that drug manufacturers are required to pay under the Medicaid drug rebate program.
The amount of the increase varies depending on whether the drug is an innovator single-source
or multiple-source drug (brand name) or a noninnovator multiple-source drug (generic).

Every quarter, CMS determines the portion of the unit rebate amount for each drug that relates to
the ACA portion. CMS refers to this amount as the “unit rebate offset amount” (UROA). States
apply the UROA to the number of units of each drug for which they received payment from a
manufacturer to determine the ACA portion. 2

The State Agency’s Medicaid Drug Rebate Program

The State agency contracts with its fiscal agent, Hewlett-Packard Enterprise Services, LLC (HP),
to perform all drug rebate program functions other than receiving rebate funds. HP calculates the
rebates due based on CMS’s unit rebate amount and bills the manufacturers for rebates. The
manufacturers pay the rebates directly to the State agency. The State agency forwards copies of
the payment information to HP, which reconciles the invoiced amount to the paid amounts. HP
uses the UROA data from CMS to calculate the ACA portion for each drug for which payment is
received.

HOW WE CONDUCTED THIS REVIEW

Our audit covered the ACA portion of drug rebates reported on the State agency’s CMS-64
reports for October 1, 2011, through September 30, 2012. To evaluate controls, we selected the
CMS-64 report for the quarter ending September 30, 2012, to determine whether all rebates
collected during that quarter were reported. Then, using the rebate amounts collected, we
verified whether the ACA portion that was reported was accurate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

The Appendix contains the details of our audit scope and methodology.




2
    The ACA portion is reported on line 7A5 of the CMS-64.9Base section of the CMS-64 report.

Arkansas Properly Reported the Affordable Care Act portion of Medicaid Drug Rebates (A-06-13-00034)   2
                                         RESULTS OF AUDIT

The State agency established adequate controls to properly report the ACA portion of the
Medicaid drug rebates.




Arkansas Properly Reported the Affordable Care Act portion of Medicaid Drug Rebates (A-06-13-00034)   3
                     APPENDIX: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered the ACA portion of drug rebates reported on the CMS-64 reports for
October 1, 2011, through September 30, 2012.

Our audit objective did not require an understanding or assessment of the complete internal
control structure of the State agency. We limited our internal control review to obtaining an
understanding of the State agency’s controls over reporting the ACA portion of Medicaid drug
rebates.

We performed fieldwork at the State agency and its contractors in Little Rock, Arkansas, from
April through July 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance pertaining to the ACA
        increases in Medicaid drug rebates;

    •   interviewed State agency and fiscal agent personnel to gain an understanding of the
        administration of and controls over the ACA portion of Medicaid drug rebates;

    •   reviewed State agency policies and procedures for calculating and reporting the ACA
        portion of Medicaid drug rebates; and

    •   tested the controls over reporting of the ACA portion of Medicaid drug rebates by:

            o obtaining from the State agency the CMS-64 reports for Federal fiscal year 2012,

            o reviewing the State agency’s Medicaid drug rebate collection reports for rebate
              amounts collected from manufacturers during the quarter ended September 30,
              2012,

            o reviewing the State agency’s detail summary for the Medicaid drug rebates
              reported on the CMS-64 report for the quarter ended September 30, 2012,

            o reconciling the Medicaid drug rebates collected during the quarter ended
              September 30, 2012, to Medicaid drug rebate amounts reported in the CMS-64
              report for September 30, 2012,

            o judgmentally selecting 30 sample items from the Medicaid drug rebate detail
              summary spreadsheet for the quarter ended September 30, 2012, for testing, and


Arkansas Properly Reported the Affordable Care Act portion of Medicaid Drug Rebates (A-06-13-00034)   4
             o tracing the sample items to the invoice. 3

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




3
  The invoice is the original invoice sent from the State agency. If there are current-quarter adjustments or prior-
quarter adjustments to be made, the manufacturer sends either the Reconciliation of State Invoice for current quarter
payment adjustments or the Prior Quarter Adjustment Statement or both, rather than the original invoice, along with
their payment.

Arkansas Properly Reported the Affordable Care Act portion of Medicaid Drug Rebates (A-06-13-00034)                 5
